1000U, I L/ I tsreui,

iu: 11 Odb /4U, LAttntry:

rage 1 of

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

DEC 18 2019

PATRICIA A. McCOLM,
Plaintiff-Appellant,
v.
STATE OF CALIFORNIA; et al.,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16660
D.C. No.
2:18-cv-02092-MCE-CKD
Eastern District of California,
Sacramento
ORDER

Defendants-Appellees.
Before: THOMAS, Chief Judge, BERZON and BRESS, Circuit Judges.
This court has reviewed the notice of appeal filed August 21, 2019 in the
above-referenced district court docket pursuant to the pre-filing review order
entered in docket No. 01-80189. Because the appeal is so insubstantial as to not
warrant further review, it shall not be permitted to proceed. See In re Thomas, 508
F.3d 1225 (9th Cir. 2007). Appeal No. 19-16660 is therefore dismissed.
This order, served on the district court for the Eastern District of California,
shall constitute the mandate of this court.
No motions for reconsideration, rehearing, clarification, stay of the mandate,
or any other submissions shall be filed or entertained.
DISMISSED.

DA/Pro Se

